Le
I

@QCKLE

2311 Douglas Si : Mail H
jouglas Street Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-443
UNITED STATES OF AMERICA,
Petitioner,
vs.
DZHOKHAR TSARNAEV,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
OF JAMES FETZER, PH. D., MARY MAXWELL, PH. D., LL. B., AND CESAR BARUJA, M.
D., IN SUPPORT OF THE RESPONDENT in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 1656 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of May, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
fe maces | RENEE J. GOSS ene] Aone Q lisa? Qudraw- & Gh

My Comm. Exp. September 5, 2023

 

Notary Public Affiant

40904
